<html>
<title> - WILDLAND FIREFIGHTERS PAY: ARE THERE INEQUITIES?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




            WILDLAND FIREFIGHTERS PAY: ARE THERE INEQUITIES?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON THE CIVIL SERVICE

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2000

                               __________

                           Serial No. 106-269

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                  U.S. GOVERNMENT PRINTING OFFICE
74-833                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                   Subcommittee on the Civil Service

                   JOE SCARBOROUGH, Florida, Chairman
ASA HUTCHINSON, Arkansas             ELIJAH E. CUMMINGS, Maryland
CONSTANCE A. MORELLA, Maryland       ELEANOR HOLMES NORTON, Washington, 
JOHN L. MICA, Florida                    DC
DAN MILLER, Florida                  THOMAS H. ALLEN, Maine

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Garry Ewing, Staff Director
               Susan Mosychuk, Professional Staff Member
                         Bethany Jenkins, Clerk
            Tania Shand, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2000...............................     1
Statement of:
    Pombo, Hon. Richard, a Representative in Congress from the 
      State of California; and Hon. Tom Udall, a Representative 
      in Congress from the State of New Mexico...................     5
    Romero, Henry, Associate Director, Workforce Compensation and 
      Performance Service, Office of Personnel Management........    37
    Swartzlander, Kent, professional firefighter.................    19
Letters, statements, etc., submitted for the record by:
    Pombo, Hon. Richard, a Representative in Congress from the 
      State of California, prepared statement of.................     8
    Romero, Henry, Associate Director, Workforce Compensation and 
      Performance Service, Office of Personnel Management, 
      prepared statement of......................................    40
    Scarborough, Hon. Joe, a Representative in Congress from the 
      State of Florida:
        Prepared statement of....................................     3
        Prepared statement of Bobby Harnage, national president 
          of American Federal of Government Employees............    54
    Swartzlander, Kent, professional firefighter, prepared 
      statement of...............................................    21
    Udall, Hon. Tom, a Representative in Congress from the State 
      of New Mexico, prepared statement of.......................    12

 
            WILDLAND FIREFIGHTERS PAY: ARE THERE INEQUITIES?

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2000

                  House of Representatives,
                 Subcommittee on the Civil Service,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2203, Rayburn House Office Building, Hon. Joe Scarborough 
(chairman of the subcommittee) presiding.
    Present: Representatives Scarborough, Cummings, and 
Morella.
    Staff present: Garry Ewing, staff director; Jennifer 
Hemingway, deputy staff director; Bethany Jenkins, clerk; Tania 
Shand, minority professional staff; and Earley Green, minority 
assistant clerk.
    Mr. Scarborough. We'd like to welcome you all here, and we 
want to go ahead and start out by understanding that we're 
going to have a vote on the floor within the next 20 minutes. 
We certainly would like our two Members to have a chance to 
testify before we have to split up.
    I'd like to welcome you all here to the hearing. Today the 
subcommittee is going to conduct a hearing entitled, ``Wildland 
Firefighters Pay: Are There Inequities?'' The hearing is going 
to assess proposals to alter the current statutory caps on 
overtime pay that's available to wildland firefighters of the 
Department of Interior and the Department of Agriculture's 
Forest Service.
    Wildland firefighters work in remote areas, in national 
parks, in forests and in other public lands. They perform 
valiant work in protecting our natural resources from 
destruction by fire. The epidemic of widely publicized fires 
that have ravaged our national forests this summer attests to 
the extreme importance of their work.
    Today's hearing is going to focus on H.R. 2814. That bill 
would allow all wildland firefighters to receive overtime at 
the rate of one and one half times their basic pay, the 
familiar time and a half. Under current law, supervisory 
firefighters sometimes earn less money than non-supervisory 
wildland firefighters, because their overtime pay is in fact 
capped. This cap affects supervisory firefighters who are 
exempt from the overtime provisions of the Fair Labor Standards 
Act, and whose basic pay exceeds the minimum rate of basic pay 
for GS-10.
    Their overtime pay is limited to one and one half times the 
hourly rate of minimum rate of basic pay for GS-10. In 
contrast, non-supervisory firefighters who are not exempt from 
the overtime provisions of the Fair Labor Standards Act receive 
time and a half based on their basic pay when they work 
overtime.
    Both the Interior Department and the USDA's Forest Service 
have experienced a decline in the number of supervisory Federal 
wildland firefighters. In fact, the total number of firefighter 
teams have decreased by over 40 percent from 1992 to 1997. 
Moreover, the Department of Interior experienced a 33 percent 
decrease in the number of supervisory firefighters from 1992 to 
1997.
    These work force reductions jeopardize not only the safety 
of persons and property located in wildland areas, but also the 
firefighters who perform their duties with support and 
assistance.
    According to a GAO report, ``Federal Wildfire Activities: 
Current Strategy and Issues Needing Attention,'' dated August 
13, 1999, the current overtime pay structure contributes to 
this problem by deterring qualified personnel from becoming 
supervisory firefighters.
    The Federal Fire and Aviation Leadership Council, an 
organization of wildland fire program leaders from all Federal 
agencies that is involved in the wildland fire emergency 
management agrees with these findings. To illustrate the 
problems confronting the agencies responsible for fighting 
wildland forest fires because of the overtime pay cap, consider 
this example.
    An incident commander, a firefighter with critical 
management responsibilities, may earn less money than a truck 
driver working at the same fire. According to officials within 
the Department of Interior and the Department of Agriculture, 
many incident commanders are approaching retirement age. 
Unfortunately, there are few firefighters interested in 
replacing incident commanders.
    Well-qualified managers and supervisors are absolutely 
necessary to maintain an efficient and effective wildland 
firefighting force. Congress must therefore ensure that we 
continue to provide incentives to attract highly skilled and 
qualified individuals to fill these positions.
    I look forward to hearing from our distinguished witnesses 
as we address this important issue. I'd like to ask the first 
panel to come up, if they will.
    Panel one is going to be comprised of the Honorable Richard 
Pombo and the Honorable Tom Udall. Congressman Pombo is a 
Congressman from the 11th District of California. He's chairman 
of the Agriculture Committee's Subcommittee on Livestock and 
Horticulture. He's also a member of the House Resources 
Committee. His subcommittee assignments cover specialty crops, 
agricultural marketing, farm credit, public lands and water 
policy.
    Congressman Tom Udall is a Congressman from the Third 
District of New Mexico. He serves on the Committee of 
Resources, Small Business and Veterans Affairs. I'd like to 
welcome both of you here and thanks for coming to testify on 
this very important issue.
    [The prepared statement of Hon. Joe Scarborough follows:]

    [GRAPHIC] [TIFF OMITTED] T4833.001
    
    [GRAPHIC] [TIFF OMITTED] T4833.002
    
    Mr. Scarborough. Congressman Pombo.

STATEMENTS OF HON. RICHARD POMBO, A REPRESENTATIVE IN CONGRESS 
      FROM THE STATE OF CALIFORNIA; AND HON. TOM UDALL, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Pombo. Thank you, Mr. Chairman.
    I want to thank you for holding this hearing today. I 
introduced the Federal Firefighters Pay Equity Act, H.R. 2814, 
after several wildland firefighters in my district brought to 
my attention the monumental problem and potentially dangerous 
situation caused by pay inequity. This legislation is needed to 
strengthen our Nation's ability to fight wildland fires. This 
is accomplished by addressing the crux of the problem, 
improving the retention rates of experienced Federal wildland 
firefighters.
    At this time, I would also like to thank my colleague, Tom 
Udall of New Mexico, for all of his help and support in this 
legislation. Wildfire incidents in this country have reached 
near epidemic proportions. This year alone, over 79,000 fires 
and over 6.9 million acres have burned. Alabama, California, 
Idaho, Montana, Nebraska, New Mexico, Oklahoma, Texas and 
Wyoming are currently contending with wildland fire activity.
    At a June 7th House Resources subcommittee hearing on fire 
management, witnesses testified that larger wildland fires are 
expected to occur at increasingly alarming rates. Dense forests 
filled with dry brush which have not been seen historically in 
the United States are causing increasing fire activity, and the 
potential for catastrophic burns.
    With these facts in mind, there is an urgent need to 
improve the retention rates of our Federal wildland 
firefighters. Pay inequities contribute significantly to the 
shortage of key leadership and supervisorial wildland 
firefighter personnel who work in dangerous fire line 
situations. While working on emergency incidents, firefighters 
who are exempt from the Fair Labor Standards Act [FLSA], and 
hold key leadership positions, receive pay that is capped, 
often leaving them with less than their regular pay. On the 
other hand, FLSA exempt firefighters not necessarily considered 
managerial or supervisorial are compensated for all overtime 
hours worked at time and a half, based on their regular rate of 
pay.
    This inequity leaves little incentive for key leadership 
firefighters to work extra hours in highly hazardous situations 
when they are needed the most. The discrepancies in wage rates 
also creates a disincentive for younger, less experienced 
employees to advance within the firefighting organization and 
assume or work toward achieving key leadership positions. These 
firefighters are reluctant to undertake extensive time, 
training and commitment required to qualify for FLSA exemption 
positions, because they would earn less in overtime 
compensation than their non-exempt subordinates on the same 
fire lines.
    A recent GAO report, entitled, ``Federal Wildfire 
Activities: Current Strategy and Issues Needing Attention,'' 
observed, ``The disparity in overtime compensation discourages 
the participation of more experienced employees in firefighting 
activities.'' A 1998 letter to the director of personnel 
management from the Federal Fire and Aviation Leadership 
Council, signed by officials from the Forest Service, the BLM, 
Fish and Wildlife Service and National Park Service, stated, 
there has been a decline in the number of Federal employees who 
are qualified and/or are willing to become qualified to serve 
on incident management teams. And that is represented in this 
chart that is on your left here.
    Further, our remedy to address the personnel shortage issue 
would be for the Office of Personnel Management to grant 
emergency workers a waiver for the Fair Labor Standards Act 
ceiling on overtime rates for exempt employees. The letter 
continued by pointing out that only 1,500 to 2,500 Federal 
firefighters serve in FLSA exempt positions on emergency 
incidents each year, and incident labor costs for firefighters 
would have increased by a mere 1.3 percent in 1996. And that is 
on this chart here, Mr. Chairman, as well.
    This represents a little over one half of 1 percent of the 
total amount spent on incidents in 1996. My legislation 
addresses and solves their concerns. Mr. Chairman, the 
legislative session is running short, and we must work swiftly 
and in a bipartisan way to allow all Federal wildland 
firefighters to receive pay equity. These men and women risk 
their lives to provide for our safety and to ensure that our 
natural resources are protected.
    More and more of our forests are off limits to commercial 
harvest or forest management techniques designed to reduce 
those fuel loads. As a result, the likelihood that wildland 
forest fires will become catastrophic will continue to 
increase. Combined with the inevitable increase in urban 
interface with our natural resources, Federal wildland 
firefighters will be needed more than ever to ensure that life, 
property and natural resources are protected. We need to stand 
together and address this unjust situation. We must no longer 
accept these wrongful pay inequities.
    Before concluding my statement, I would like to express my 
disappointment with actions taken by the administration in 
addressing this serious issue. The Forest Service and the 
Department of Interior have been working with Mr. Udall and 
myself in support of this legislation. Unfortunately, the 
Department of Interior is only able to support the intent of 
H.R. 2814 and unable to support the bill at today's hearing. 
Apparently the Office of Personnel Management has legislation 
pending before this committee which would raise the cap for all 
Government employees. Using wildland firefighters as pawns in 
their game to get their controversial bill passed at the 
expense of the safety and well-being of human lives is 
outrageous and an insult to these men and women.
    President Clinton has failed the American public by 
consenting to OPM's role in this deadly game. I commend 
congressional leadership who have negotiated with the President 
to set aside emergency funds for this devastating fire season. 
However, the President has neglected to solve the Nation's 
declining firefighter population. Offering one-time pay bonuses 
to secure our Nation's firefighting manpower for only this 
season is not enough. Action to guarantee the United States has 
wildland firefighters for future seasons must be taken. What 
firefighters need is pay equity this year, next year and in 
coming years.
    Wildland firefighters will still have bills to pay and 
children to provide for in coming years, and shouldn't they 
have an equitable paycheck, too? Wildland firefighters need us 
all to answer their call for help. H.R. 2814 is the answer. 
While it may not be reflected in their testimonies, I know the 
Department of Interior knows it, too.
    Thank you, Mr. Chairman, again, for conducting this hearing 
today and I'd be happy to answer any questions you may have.
    [The prepared statement of Mr. Pombo follows:]

    [GRAPHIC] [TIFF OMITTED] T4833.003
    
    [GRAPHIC] [TIFF OMITTED] T4833.004
    
    Mr. Scarborough. Thank you, Congressman.
    Congressman Udall.
    Mr. Udall. Thank you. I would ask unanimous consent for my 
full statement to be put in the record, Mr. Chairman.
    Mr. Scarborough. Without objection, so ordered.
    Mr. Udall. Thank you.
    Chairman Scarborough, I appreciate the opportunity to 
testify before you about my strong support for H.R. 2814 and 
the serious problems posed by depleting wildland firefighting 
forces throughout the country. I applaud my colleague, Mr. 
Pombo, for introducing this important legislation to strengthen 
our Nation's capabilities to fight fires on wild lands.
    I know from working with him on the Resources Committee, 
he's a hard worker, and putting his clout behind this, I'm sure 
that we're going to get a lot of momentum.
    As many of you know, in May of this year, the Cerro Grande 
fire and the Viveash fire swept through the district I 
represent, destroying several hundred homes and businesses, 
scorching over 73,000 acres of public and private lands. I'm 
sure that the damage would have been even worse had it not been 
for the valiant and courageous efforts of many of the Federal 
wildland firefighters.
    In many of the western States, wildland fires affect many 
communities and natural resources. In New Mexico, for example, 
the annual wildfires on average burn over 185,000 acres. This 
year alone, there have been over 453,000 acres burned across 
the State.
    Adding to these alarming fire statistics are the shortages 
of available Federal firefighters. The Southwest Coordination 
Center in Albuquerque has been able to fill only 16 percent of 
the orders for fire overhead, skilled supervisors and managers 
this year. Moreover, with regard to unfilled orders for New 
Mexico, the National Interagency Coordination Center has also 
been able to fill 30 percent from other States.
    I'm aware of the enormous contributions and sacrifices that 
Federal firefighters have made as they tirelessly fight 
wildland fires, not only in New Mexico but throughout the 
country. Mr. Chairman, in your home State of Florida, for 
example, over 1 million acres of land have burned since 1998, 
and over 750 homes were either destroyed or damaged during that 
same period. We face a crisis on a national level, because 
there aren't enough experienced fire managers. These managers 
are important because they plan firefighting strategies, 
mobilize, house and feed hundreds of firefighters at a complex.
    Compounding the problem is the exodus of experienced 
professionals working in such areas as wildlife biology, timber 
sales, recreation management, and even clerical positions. 
During big fire seasons, up to 40 percent of these 
professionals set aside their normal jobs to participate in 
fire management. These reductions adversely affect the quality 
of our public lands, in addition to jeopardizing the 
effectiveness and safety of our firefighters.
    The primary reason for the shortage of firefighting 
personnel is the pay equity issue that affects the structure 
and strength of our Nation's firefighters. When called to a 
fire, firefighters who normally have other jobs are categorized 
in either non-exempt positions, such as firefighters and truck 
drivers, or exempt positions, such as incident commanders and 
logistic section chiefs. Overtime pay is calculated differently 
for these categories. Non-exempt personnel are compensated for 
overtime at a rate of one and a half times their normal base 
pay. Exempt personnel are compensated for overtime with a cap 
at step one of the Federal General Salary Level 10, which may 
be below their normal pay.
    Accordingly, incident commanders, for example, with 
significant management responsibilities of making life and 
death decisions and of obligating the Federal Government to 
over $1 million a day, are paid less than a truck driver 
working on the same fire. This is inexcusable and makes no 
sense.
    Here lies the root of the problem. The pay equity issue has 
discouraged many potential firefighters from advancing from a 
firefighter to a supervisory and management position within the 
fire organization. Many say, why work in a position that 
demands greater experience, knowledge and responsibility yet 
provides less compensation. There is a chronic shortage of 
trained, professional wildland firefighters, which has been 
exacerbated by this pay equity issue.
    If we want to stop the exodus of trained firefighters from 
the ranks of our Federal employees, so that they have an 
incentive to move into the dwindling ranks of critically short 
overhead positions, we must fairly compensate them. I ask that 
my colleagues join Mr. Pombo and 65 others who have co-
sponsored this bill, so that we can strengthen our Nation's 
wildland firefighter corps by compensating them fairly.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Tom Udall follows:]

    [GRAPHIC] [TIFF OMITTED] T4833.005
    
    [GRAPHIC] [TIFF OMITTED] T4833.006
    
    [GRAPHIC] [TIFF OMITTED] T4833.007
    
    Mr. Scarborough. Thank you for your testimony.
    I'd like to recognize Congressman Cummings, the ranking 
member here. We obviously have a vote going, but I want to ask 
you all briefly a couple of quick questions, then turn it over 
to Congressman Cummings. And if you all want to come back 
afterwards, great, if not, we'll go to the next panel.
    Congressman Udall said the situation was inexcusable. And I 
have a quote here from you, Congressman Pombo. You said OPM is 
engaged in a deadly game. That's pretty strong language. Can 
you expand on that?
    Mr. Pombo. Yes, Mr. Chairman. Many times, as you are well 
aware, when we get into legislation, it becomes more an issue 
of politics and trying to achieve within the political game 
than it does what's really right. In this particular situation, 
we have firefighters who are out there who are risking their 
lives and the lives of the public, fighting fires that are out 
of control across the western United States.
    To me, it is not a matter of partisan politics or trying to 
get other legislation passed. This is a matter of how do we 
take care of this one specific problem.
    Congressman Udall and I both represent areas of the country 
that have had serious problems. We both have constituencies 
that are firefighters. And this is a problem that needs to be 
solved. It is not something that should be bottled up because 
of partisan politics or because the administration wants 
another bill passed.
    Mr. Scarborough. And you're saying that they're actually 
tying what you consider to be a safety issue up with another 
bill that's totally unrelated to this?
    Mr. Pombo. I believe that is the case, yes.
    Mr. Scarborough. Congressman Udall, is that your 
understanding?
    Mr. Udall. Chairman Scarborough, I don't know about all the 
other legislation that's out there pending. But whether the 
merits of that are good or not, I think the way to tackle this 
fire issue and the pay equity issue is to deal with it very 
specifically. I mean, we, as Rich said, we have 6.6 million 
acres in this fire season up in flames. We have a crisis 
situation. We have very capable people within our firefighting 
ranks who could be promoted and who could be up there helping 
manage these fires and doing a better job at what they do in 
the field. And with the pay situation now, they can't do it.
    I think it's urgent we move on this, regardless of the 
merits of the other legislation. It seems to me, let's focus on 
what our problem is, what we're hearing from the field, and do 
something about it.
    Mr. Scarborough. And make it a stand-alone bill. I'll tell 
you, I agree with you. It sounds like they're holding this 
legislation hostage, and if you're talking about it, both of 
you have said it's a crisis situation. I'm really surprised 
that they would use a bill that is so important to the safety 
and protection of life, the protection of property, simply in a 
game of Washington gamesmanship. It's frightening.
    Give me very briefly the history of the Forest Service and 
the Department of Interior's dealings with both of you. Because 
from my understanding, they were actually supportive of this 
concept, and I thought, supportive of this bill. Yet when we 
called them to testify, they ran for cover. They're not even 
here. Why aren't they here?
    Have you all talked to them? Who are you talking to there, 
and why is this issue not important enough to the people of 
your district and the people in the State of Florida and across 
the country for them not to even show up at this hearing?
    Mr. Pombo. Well, Mr. Chairman, all throughout this entire 
process, we have been working with the administration in 
drafting the legislation and coming up with a solution to the 
problem. They have been supportive of our efforts. They have 
worked with us openly and freely throughout the entire process. 
I was under the impression that they were in full support of 
the legislation.
    It was only very recently that it became apparent to me 
that they would not show up at this hearing and openly support 
the legislation. And it's through that frustration that we 
began to look at what the possibility was of why they would 
not.
    Mr. Scarborough. Congressman Udall, can you tell me, was it 
not your impression that Interior supported this all along?
    Mr. Udall. My understanding is that both Interior and the 
Forest Service are very supportive. I think it's the Office of 
Personnel Management that's the problem here.
    Mr. Pombo. I believe that's the case, yes.
    Mr. Scarborough. And so as we're winding up in a 
legislative session, in an election year, unfortunately, it 
seems like they're running for cover. It's beyond me.
    Congressman Cummings?
    Mr. Cummings. I really don't have anything. I don't know 
whether anybody's running for cover. I'm not sure what's going 
on. First of all, I want to thank both of you for your 
legislation. I think it's good legislation.
    We have similar legislation which encompasses not only 
firefighters, but the law enforcement officers, the National 
Transportation Safety Board inspectors. This is an issue that 
is not a young issue. And the wildfires are certainly the big 
issue of the day. And it is extremely important that those 
ladies and gentlemen who put their lives on the line be 
compensated.
    So maybe as we go through this hearing we'll get to the 
bottom of this. But I just wanted you to know you have my 
support.
    Mr. Scarborough. I appreciate you all coming today. We've 
got about 5 minutes to get over to the vote. When we come back, 
we'll go to panel two.
    We're going to be in recess probably for about 15 minutes.
    [Recess.]
    Mr. Scarborough. I'd like to call our hearing back to 
order, and would like to introduce Mr. Cummings for the purpose 
of giving his opening statement. Congressman Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    This hearing will address an issue that has long been of 
concern to me, and to Federal employee organizations, the Title 
V Overtime Pay Cap. In addition to the wildland firefighters, 
however, the overtime cap affects an estimated 500,000 Federal 
managers, supervisors, FLSA exempt employees.
    The overtime cap for Federal managers and supervisors has 
not changed for over 30 years. Under current law, overtime pay 
for firefighters, law enforcement officers and managers is 
limited to that given to a general schedule level 10, step 1 
employee. As a result, these employees, the majority of whom 
rank above that level, earn less overtime than they do for work 
performed during the regular work week.
    When this issue was raised at a civil service reform 
hearing in 1998, the Director of the Office of Personnel 
Management testified that the cap was unfair and warranted 
looking into. My response back then was, ``Well, when are you 
going to do it.''
    Like the rest of us, FLSA exempt employees deserve to be 
fairly compensated, so they can adequately provide for 
themselves and for their families. Last year, on behalf of the 
administration and with the support of Representatives Tom 
Davis and Connie Morella, I introduced H.R. 1770, the Federal 
Employees Overtime Pay and Limitations Act of 1999.
    H.R. 1770 would change existing law so that no Federal 
employees would receive less than his or her hourly rate of pay 
for overtime work. My legislation would provide wildland 
firefighters and all other FLSA exempt employees with overtime 
calculated as the greater of one and one half times the GS-10 
step 1 hourly pay rate, or their hourly pay rate.
    Today, I plan on introducing legislation that further 
acknowledges the commitment and the dedication of Federal 
employees when they respond to emergencies and disasters, like 
the over 65 wildfires that besiege the western United States. 
In addition to the provisions in H.R. 1770, this legislation 
would increase the hourly overtime pay rate limitation from a 
GS-10 step 1 to a GS-12 step 1 for FLSA exempt employees who 
perform overtime work in connection with an emergency. This 
legislation would ensure that all Federal employees who put 
their lives on the line are fairly compensated.
    There are numerous other bills that amend Title V to raise 
the overtime cap for Federal employees. H.R. 2814, the Wildland 
Firefighters Pay Equity Act of 1999, which was introduced by 
Congressman Pombo, provides that the overtime pay rate for 
employees engaged in emergency wildland fire suppression 
activities would be one and one half times their hourly rate of 
basic pay. Representative Tom Davis has two bills: H.R. 583 and 
H.R. 2696, that would raise the overtime cap for FLSA exempt 
Federal employees.
    I hope this hearing will help the subcommittee determine 
the merits of these legislative proposals, and what should be 
done to address all of those affected by the current overtime 
cap.
    Thank you.
    Mr. Scarborough. Thank you, Congressman Cummings, and thank 
you for your attention to this important issue for some time.
    Congresswoman Morella, would you like to make an opening 
statement?
    Mrs. Morella. Thank you, Mr. Chairman, a very brief 
statement.
    I want to thank you for holding this very important and 
very timely hearing. I've always, as have other members of this 
subcommittee, been an advocate for our Federal employees, and I 
think that today's hearing is of particular importance because 
of the wildfires that have raged throughout the west.
    I hope that we can reach some kind of an agreement on how 
to best compensate the individuals on the front lines of those 
fires, our Federal firefighters. Wildland firefighters work in 
remote areas, in national parks, in forests, and in other 
public lands. They perform valiant work in protecting our 
natural resources from destruction by fire.
    Unfortunately, there's a dearth of supervisory 
firefighters. And the situation may only worsen if we don't 
address this overtime compensation situation. Congress must 
examine the issue, and ensure that we continue to provide 
incentives to attract highly skilled and qualified individuals 
to fight our Nation's wildland fires.
    I know that we have heard in the first panel two of our 
colleagues, Congressman Pombo and Congressman Udall, on the 
issue. I know that Congressman Pombo has offered H.R. 2814, 
which has been discussed and will continue to be discussed, 
covering the wildland firefighters who work in the U.S. Forest 
Service of the Department of Agriculture or Interior.
    I am, as has been mentioned by Congressman Cummings, a co-
sponsor of legislation H.R. 1770, which would alter pay rates 
for all Federal employees. There are other pieces of 
legislation also before us. At any rate, I think this is an 
important hearing. I look forward to hearing from our second 
panelist here, Kent Swartzlander, who is a professional 
firefighter, and subsequently from Mr. Romero at the Office of 
Personnel Management.
    I yield back, and I thank you.
    Mr. Scarborough. Thank you, Congresswoman Morella. You have 
been a tireless advocate for Federal employees, and we 
appreciate all you've done.
    Let me go ahead and ask our second panel to come up. It's 
going to consist of Kent Swartzlander. And Mr. Swartzlander 
began his career in fire service at an early age, following in 
the footsteps of his father, who served in the fire service for 
37 years.
    Mr. Swartzlander was appointed as a battalion chief with 
the U.S. Forest Service in 1999. He has extensive fuels 
management experience, including 17 years of service on hot 
shot crews, fighting fires across the United States.
    Mr. Swartzlander currently serves as President of the 
Federal Wildland Fire Service Association. It's an organization 
formed to pursue the acknowledgement and betterment of Federal 
wildland firefighters. Mr. Swartzlander, we'd like to welcome 
you here, and thank you for all the work you've done in the 
past, for those that have been protecting Americans across the 
country. And we certainly are grateful for your time before us 
today.
    I'd like to ask, if you could, to stand up and take the 
oath.
    [Witness sworn.]
    Mr. Scarborough. Please have a seat.
    And we'd like to ask you to testify, begin your testimony 
and limit your statement to 5 minutes. And any additional 
written statements will be introduced into the record.

    STATEMENT OF KENT SWARTZLANDER, PROFESSIONAL FIREFIGHTER

    Mr. Swartzlander. Mr. Chairman and members of the 
subcommittee, I sincerely appreciate your invitation to present 
my views today on existing wildland firefighter pay inequity. I 
speak to you today as a private citizen. I represent the 
Federal Wildland Fire Service Association, a group formed by 
Federal wildland firefighters employed by the Departments of 
Agriculture and Interior.
    As said before, I've been employed in the fire service for 
quite some time, 27 years, to be exact, 17 of which, as a hot 
shot and just currently as a battalion chief.
    Federal wildland firefighters are currently classified as 
forestry or range technicians or other classifications which do 
not properly recognize their duties and responsibilities. This 
is ludicrous. I personally have spent more than 2,000 hours 
performing fire suppression activities in a single year. 
Federal wildland firefighters look forward to a rewrite of the 
081 firefighter classification series to include wildland 
firefighters as advocated by OPM Director LaChance.
    Today, several pay inequities exist in the Federal wildland 
firefighting arena. These inequities have resulted in 
recruitment and retention problems as well as a lack of 
participation by Federal personnel who are not hired as 
firefighters, but have historically supported emergency 
incidents. These inequities include a cap on the overtime for 
FLSA exempt employees, non-inclusion of hazard pay as basic pay 
for retirement calculations, and no portal to portal pay for 
Federal wildland firefighters.
    Federal employees are designated as either exempt or non-
exempt from FLSA provisions. Additionally, the agency has 
further designated some incident positions as non-exempt from 
FLSA provisions. This allows exempt employees to work in a non-
exempt position and receive true overtime for their services. 
While that sounds beneficial on the surface, this encourages a 
person qualified to fill a higher responsibility exempt 
position to choose a lower responsibility non-exempt position 
which pays true overtime.
    Imagine being faced with a decision to accept one of two 
fire assignments. One is an exempt employee, such as an 
incident commander or operations section chief. Another is a 
non-exempt position such as a time recorder. When you know the 
higher responsibility caps your overtime, possibly a lower wage 
than your base salary, it is difficult not to choose the lower 
responsibility position, which pays true time and a half 
overtime pay.
    It's a stunning inequity to realize that the positions that 
require the highest knowledge, skills and experience, can pay 
less than the lower responsibility positions. Even though 
employees are aware of this, most of our dedicated firefighters 
realize the importance of their participation in these exempt 
position roles for public safety and have accepted these lower 
paying, higher responsibility positions.
    However, each year, more are opting for the non-exempt 
positions as Federal wildland firefighters are some of the 
lowest paid firefighters in the country and need true overtime 
to support their families.
    H.R. 2814 corrects this pay inequity and would simply pay 
all employees true overtime. I ask the members of this 
subcommittee to act quickly and correct this inequity by 
supporting this legislation and moving it through this session 
of Congress.
    Another inequity concerns hazardous duty pay. General 
schedule employees receive 25 percent hazardous duty 
differential pay for fighting fire, but do not receive the 
benefit of having this differential included as part of their 
basic pay rate for retirement calculations. Wage grade 
employees, on the other hand, receive 25 percent environmental 
pay for fighting fire, and in fact, according to law, have this 
environmental pay included as part of their basic pay for 
retirement calculations. All personnel fighting fires and 
earning differential pay should receive the same benefit, no 
matter what their pay schedule.
    Yet another inequity deals with portal to portal pay, or 
lack thereof. Federal wildland firefighters are only paid for 
their actual work time, including travel. This means that these 
firefighters are not being paid while they're being locked down 
in fire camps, not being paid while eating rations without 
sanitation facilities and sleeping in paper bags on the fire 
line.
    However, most cooperators that we employ, or the agencies 
employ, working on these same fires, are compensated at full 
portal to portal pay.
    I'm sure you're aware that the current 10 year average for 
acres burned has escalated tremendously, as compared to 
previous decades. You must have witnessed the rash of new fire 
starts across the United States in the last 2 months, many of 
which were large devastating fires. With almost 7 million acres 
burned to date, this year is not a fluke, but rather, a very 
real example of potential in years to come.
    We support the agencies' and administration's efforts as 
proposed in a recent report to the President to increase 
funding for fire preparedness. As was pointed out in a USDA 
Forest Service report in Region V to Congressman Herger, 
reductions in initial attack capabilities over time have 
reduced the ability to minimize acres burned.
    I believe the best thing that can happen would be for the 
wildland agencies to be funded at a level which will allow for 
the sufficient and properly compensated Federal resources for 
firefighting. This will encourage the retention and expertise 
of their employees as well as reduce the need for cooperators 
or expensive contractors.
    A first positive step will be the elimination of the 
overtime pay cap currently in place. Any other proposal to 
alter the pay cap formula is inappropriate.
    We appreciate the administration's latest efforts to fix 
the pay cap problem as stated by Mr. Cummings earlier. However, 
this solution does not fully resolve the full scope of the 
issue.
    This concludes my testimony. As a part of the record for 
this hearing, I ask the committee to accept all written 
testimony provided to the committee for the July 26th hearing 
that was canceled. And I'm ready for any questions you may 
have.
    [The prepared statement of Mr. Swartzlander follows:]

    [GRAPHIC] [TIFF OMITTED] T4833.008
    
    [GRAPHIC] [TIFF OMITTED] T4833.009
    
    [GRAPHIC] [TIFF OMITTED] T4833.010
    
    [GRAPHIC] [TIFF OMITTED] T4833.011
    
    [GRAPHIC] [TIFF OMITTED] T4833.012
    
    [GRAPHIC] [TIFF OMITTED] T4833.013
    
    [GRAPHIC] [TIFF OMITTED] T4833.014
    
    [GRAPHIC] [TIFF OMITTED] T4833.015
    
    [GRAPHIC] [TIFF OMITTED] T4833.016
    
    [GRAPHIC] [TIFF OMITTED] T4833.017
    
    Mr. Scarborough. Without objection, on that request, so 
ordered.
    Let me begin just touching on something you talked about at 
the end, and that's just to talk about how we have a possible 
crisis situation regarding fires across the country. We heard 
earlier from Congressman Pombo that actually the situation is 
not getting better, it was getting worse because of just the 
situation out there, and predicted catastrophic burns.
    You've just said that this year is not a fluke. Do you 
expect in the coming years actually more fires, just because of 
what's happening out there?
    Mr. Swartzlander. Mr. Chairman, I wouldn't expect a 
substantial increase in the number of fire starts. I think the 
historical range in that is pretty well set. There's so many 
person-caused fires and so many lightning fires, those don't 
change very greatly over the years.
    But the acres burned, in my experience, in my 27 years, in 
the last decade we've had a substantial increase. And I expect 
that to continue for a couple of reasons. One is the amount of 
fuel that we do have built up in the woods out there, in the 
wildlands at this point in time. The second reason is the quite 
reduced work force we have to deal with the initial attacks on 
these fires.
    In my area that I'm employed in, as an example, we have the 
charts up there that say the same thing, in the late 1970's, we 
had over 800 firefighters employed on the exact area I work at. 
Today we have 160. So in a 25 year period, we're down to 20 
percent of what we used to have.
    And the fires that we're dealing with out there are bigger, 
tougher fires. There's a lot more urban interface involved. 
We're focusing a lot of our efforts on the communities and 
saving the homes, reduce the amount of people that we have out 
there. That becomes a high priority.
    Mr. Scarborough. So, more fires and less firefighters. How 
many wildland firefighters are full time and how many are of 
the Federal employees perform the wildland firefighting as a 
collateral duty?
    Mr. Swartzlander. Well, to the best of my knowledge and 
information that's been shared with me, there's about 1,400 
permanent, full-time firefighters within the five wildland 
agencies. Additionally, well, all total, approximately 7,000 to 
8,000 people that are employed with primary duty of 
firefighting across the United States in those five agencies. 
That's to the best of my knowledge.
    In addition to that, the people that have, you say a 
collateral duty, we call them the ``militia'' do other things, 
and they're not hired specifically for firefighting; they come 
out. I could only guess on that. My guess would be a couple 
thousand, something like that.
    Mr. Scarborough. Let me ask you this. And I think the thing 
that surprises me the most, and from hearing the statements of 
others up here, is that we have a situation where we're 
basically paying our most qualified people, let's say our 
generals and our admirals, less than we're paying our privates. 
The incentives are just totally backward.
    Do you know of specific examples, and can you cite a few, 
you don't have to give names of people, but of qualified people 
that if you're on the front line against a fire that's sweeping 
across acres, and in a very dangerous situation, do you know of 
people that are saying, ``Hey, listen, I'd love to help out, 
but I've got a family to take care of, and I am not going to go 
into a supervisory role; you can give it to somebody who's less 
qualified?''
    Mr. Swartzlander. I don't know personally of anybody out 
there that's going to tell you that, in light of the situation, 
in their face.
    Mr. Scarborough. Won't say that, right.
    Mr. Swartzlander. But if they were given an opportunity of, 
when they're ordered up for a fire, here's a job, do you want 
this job, or there are maybe two different opportunities, which 
one are you going to go for? I mean, it's likely the person's 
going to go for the one that pays the best.
    And what's so out of whack about the whole thing is that 
you could have a GS-5 or GS-6 type person in the normal work 
force supervising GS-11s in fire incident. It happens all the 
time. Part of that problem is the fact that the overtime pay 
cap is in effect. The GS-11 can take a non-exempt position and 
get paid full time and a half overtime, and the GS-5 was 
already in one, a non-exempt position, so now it doesn't matter 
for them.
    Mr. Scarborough. I missed the first part of the statement 
you made. You had talked about something and said it was 
ridiculous, and said that you spent up to 2,000 hours in a 
single year fighting fires. Could you go back and explain that 
again? What were you saying there?
    Mr. Swartzlander. Well, the frustration stems around the 
fact that we're not classified as firefighters. We're forestry 
technicians or range technicians or whatever. That's the 
frustration. For somebody to tell me that my true 
classification is a forestry technician, to me it's just 
ludicrous. Because I have spent over 2,000 hours of work in 
fire suppression alone. Not preparedness, but actual fire 
suppression activities, in one calendar year. And this happens 
all the time with folks.
    So for me to spend what the normal work person would spend, 
8 hours a day, 5 days a week, which is a little over 2,000 
hours, I'm spending a whole year's worth of work just fighting 
fire in a more condensed time. But I'm not even a firefighter.
    So there is a lot of frustration. We realize this isn't a 
legislative fix, it's an administrative fix, but we've been 
working on it.
    Mr. Scarborough. Last question, then I'll pass it on to 
Congressman Cummings. Do you consider this issue and the back 
and forth, the political bickering that's going on right now, 
that's preventing this bill from being passed, do you consider 
this to be a safety issue like Congressman Pombo?
    Mr. Swartzlander. I definitely do. And it's for those 
reasons that we're not getting the right people into the right 
jobs. The highest level of responsibility also has the highest 
level of knowledge associated. And we're not absolutely getting 
the right people into the right jobs all the time.
    Mr. Scarborough. You're not getting the best people?
    Mr. Swartzlander. We're not getting the best people in the 
best positions at all times. There has to be some additional 
incentive. And right now, we have total opposition to that, 
when we can have the lowest level of requirement of knowledge 
and responsibility attain a higher wage than the very highest 
level on a fire.
    Mr. Scarborough. Thank you.
    Congressman Cummings.
    Mr. Cummings. You had said toward the end of your statement 
that my legislation would not cover all of your concerns. Can 
you just tell me what else needs to be covered? Is it the 
hazardous?
    Mr. Swartzlander. Mr. Cummings, my focus on that statement 
was just at the overtime pay cap. Since this hearing was for 
the wildland fire pay inequities, of course, I've surfaced some 
other things that we've been working on for a number of years 
here.
    The reason I said that H.R. 1770 would not be a fix for our 
concerns out here, for the full scope of the issue, is because 
it wouldn't fix the non-exempt/exempt issue. It would certainly 
allow for better pay for these folks, and there will be some 
incentive for some encouragement for those highest skilled and 
knowledgeable people to fill those highest roles.
    But it's not going to be a complete fix, because people 
will still know that if you get into a non-exempt position, you 
would get true time and a half overtime.
    So really what we need for the emergency incidents, when we 
get into the incident demand system and they're designated 
exempt and non-exempt positions, we need a full elimination of 
the overtime pay cap so that we don't have this issue about 
which position might or might not fill because of the 
differences in pay.
    Mr. Cummings. We have 6 percent fewer trained firefighters 
than we did last year? Do you know that?
    Mr. Swartzlander. I'm not absolutely aware of that 
percentage. I do know what I told you, in the late 1970's, we 
had 800 on my forest area, now we have 160. So 80 percent 
reduction over 25 years, and at least half of that came in the 
last 6 to 8 years. So we've reduced down to a bare bone 
organization.
    Mr. Cummings. Do you think some of that has to do with this 
issue that you're here today about?
    Mr. Swartzlander. Well, maybe some of it. We know that 
there are always going to be fires. Fires aren't diminishing. 
It's just a matter of when the fire is going to happen, not if 
it's going to happen. We know it's going to happen. So I think 
it's been rather inexcusable to diminish the work force as we 
have had. But I would say it's been a budget constraint, from 
my knowledge.
    Mr. Cummings. When did you say you had 800 in your unit? 
When was that?
    Mr. Swartzlander. In the late 1970's.
    Mr. Cummings. So are the first just as frequent as they 
were, or more today than, say, around that time that you had 
800?
    Mr. Swartzlander. Fire frequency has been about the same as 
when we had 800. But acres burned has escalated tremendously.
    Mr. Cummings. And you attribute that to, in part, I think 
what you said was that the initial getting to the burn in the 
beginning----
    Mr. Swartzlander. Right, the initial attack resources, 
those fire engines, hot shot crews that are on base, ready to 
go, to put the fire out. With the diminished work force that we 
have right now, we frequently get stripped of our resources 
trying to support other fires away from our home area. But when 
we get down to where we have a fire in our home area, we have a 
limited amount of resources out there to work on the fire.
    Mr. Cummings. How do you feel about the training? What goes 
into the training of somebody like you to do this kind of work?
    Mr. Swartzlander. I think the training is really good. I 
think there's an extensive amount of training that goes into 
the individuals out there as they're coming up through the fire 
service. In my years, since I started with the fire service, 
the training has escalated, become a lot more professional, a 
lot more requirements. So I think people are getting trained 
appropriately.
    Mr. Cummings. And this is truly a specialty, isn't it?
    Mr. Swartzlander. Oh, yes. The difference that I've seen, 
growing up in the fire service over the years, one of the 
biggest differences is the amount of homes that we have out 
there, on all wildfires. I know Mrs. Morella talked about the 
remote areas and stuff, and we certainly go into those remote 
areas with the smoke jumpers and the hot shots and in the 
wilderness and stuff. But it's incredible how many fires we go 
to nowadays where we are dealing with homes, in all, almost all 
of our wildfire situations.
    So that has become a big component of what, a new thing out 
there for the wildland firefighter in the last 10, 15 years.
    Mr. Cummings. So I take it that before, if you didn't have 
homes, there were certain things, I guess you could allow it to 
burn to a certain degree? But now you I guess you have to stop 
it as soon as you possibly can?
    Mr. Swartzlander. Well, in some places you may have had 
policy where you could have let it burn to some degree, but not 
a whole lot of places. We just didn't have that concern about 
the urban interface. So we could concentrate on saving the 
natural resources out there, and that was our primary focus. 
Now whenever we have homes involved, we have to engage with 
that concern and that becomes a primary focus, and we end up 
backing off the natural resources values out there, if that's 
the case.
    Mr. Cummings. Just one more question, Mr. Chairman.
    Mr. Scarborough. Sure.
    Mr. Cummings. Let me ask you, say we were able to fix this 
problem. What effect do you think that would have on the people 
that you work with every day?
    Mr. Swartzlander. Well, there's two things. One is, I think 
it would mean, and I think most of the people I'm representing, 
it's a matter of fairness that we resolve something. The other 
one is it's going to give a considerable amount of incentive 
for people that have not been participating fully in the past 
to participate. And it's going to give a lot of incentive to 
retain the people we have out there.
    In my part of the country, we're losing people in the 
masses to our cooperators, who pay much better money for the 
same job. We lose droves of them. Our joint apprentice academy 
that brings the youngest folks in, takes them through the 
training academy, develops them into a career employee, we're 
lucky if we retain 25 percent of those individuals into the 
careers. They're all going to our cooperators. As soon as they 
get through the training academy, they're gone.
    Mr. Cummings. Thank you.
    Mr. Scarborough. Congresswoman Morella.
    Mrs. Morella. Thank you, Mr. Swartzlander.
    Yes, I am very intrigued, you gave us a very comprehensive 
testimony here. Obviously you were nice enough to stay within 
our time constraints on the committee, and I thank you for it.
    Also, as a former English teacher, I'm surprised, you even 
categorized it, you did an outline. I won't grade the outline, 
but you did an outline. And I wondered, in the outline you had 
mentioned the issues that you have expanded in your testimony. 
I just wondered if you might prioritize for us what you 
consider to be like the most important, maybe a couple of 
others. You have talked about the misclassification of the 
Federal wildland firefighters, the hazardous duty pay as part 
of the retirement calculations, the need for portal to portal 
pay, other retention problems, the overtime pay, pay cap 
elimination.
    Would you venture to try to prioritize?
    Mr. Swartzlander. Well, you're asking a tough question.
    Mrs. Morella. I know.
    Mr. Swartzlander. But I think most of us out there probably 
truly believe that the most important thing is getting proper 
classification. I think a lot of things stem around that.
    For us, we wonder if really people are taking us serious 
enough at times, because we're forestry techs and range 
technicians, and we're not classified firefighters. But this is 
all what we're hired for, to fight fires. So I think the 
classification issue is a big one, and we understand it's not 
legislative. But that is a big concern.
    As far as the other three, the portal to portal, the pay 
cap and the hazard pay, it's really tough for me to sit here 
and say one is more important than the other. They're really 
all about fairness. We have wage grade people in our same 
system come out to fight fires with us. They're given this 
opportunity to get their environmental pay as part of their 
base pay rate, and it's because they're blue collar and we're 
considered white collar. As I talk with OPM, that's what they 
tell me.
    Mrs. Morella. Are they, other than the non-legislative 
remedy issue of classification, are they addressed in the piece 
of legislation? Do you feel the Pombo bill, for instance, 
addresses all of them?
    Mr. Swartzlander. The Pombo bill is just the overtime pay 
cap. I've talked with Representative Pombo and Senator Burns 
both about these other issues. And we expect that you will see 
something in the future to address those issues.
    We've also talked with OPM about the hazard pay thing, if 
it could be something that could be fixed non-legislatively. 
Because it seems to be just an omission from law, rather than 
an exclusion. But that interpretation battle seems to stem a 
need to have a piece of legislation to fix it.
    Mrs. Morella. I had an opportunity to scan the AFGE 
statement that's on the table there. And they mentioned the 
role of the Department of Defense firefighters that fight 
alongside the Forest Service firefighters and Interior 
firefighters. And I just wonder, is this a frequent occurrence 
that happens? And then obviously, the Pombo bill does not 
include the DOD firefighters, so I would ask your opinion of 
that.
    Mr. Swartzlander. My best answer for you is, I know while I 
worked in southern California for a number of years, places 
like Camp Pendleton, or Vandenberg Air Force had a lot of 
wildfires in their area, and they do end up working side by 
side with some of our resources.
    Other than those areas, and there's probably others around 
the United States I'm not that aware of, but in the event of 
the large devastating fires in Montana and Idaho in the last 
couple of months, of course we brought in a lot of military 
folks that were trained up a couple of quick days and taken out 
on the fire lines in some of the safer spots to work on. I 
would say that's a rarity. It seems like we have tapped that 
resource a few times lately, but it's due to the fact we don't 
have enough resources ourselves any more.
    Mrs. Morella. How do you feel, just your general 
impression, of expanding this concept of overtime pay and 
making it higher during emergency situations, very much like 
that bill, H.R. 1770? Do you have any problem with that?
    Mr. Swartzlander. Well, I don't know that much, and I 
probably should, but I don't know that much about the DOD 
firefighters' actual pay schedule concerning this event. I 
understand they're capped, too.
    As far as the issue with others and what H.R. 1770 would 
cover, the entire Federal Government, I guess my issue with 
that is, I really feel strongly that this is a different 
situation, that what we're talking about is an emergency 
situation only. This bill would not cover me when I was off in 
the wintertime doing training or something else, doing 
something else that might be getting overtime, even prescribed 
burning, this bill would not cover me.
    But for the emergency incidents, when we have an incident 
command system established, and we have this issue with exempt 
and non-exempt positions, and the rates that go along with 
them, that's the focus of my issue that I don't believe fits 
into others. An emergency incident with the incident command 
system that we use. This is a real problem, and anything but 
eliminating the pay cap will not fully resolve the issue.
    Mrs. Morella. And I very much appreciate your addressing 
the specific issue, which is why you are here.
    Mr. Chairman, just another brief one, about the fact that, 
how much of a factor is, it's kind of hard to answer, how much 
of a factor did the reduced numbers of supervisory firefighters 
play in the overall ability of the firefighting teams to manage 
and contain the fires out west?
    Mr. Swartzlander. You want me to answer that? Of course, I 
can't give that, all I could do is guess. But one thing I want 
to point up, just so we all have knowledge of it, is we talk 
about the supervisory manager firefighters. Actually, the 
overtime pay cap now affects the person that's engine captain, 
just the third rank up. You start firefighter to an engineer to 
an engine captain. That captain, in the higher steps of that 
grade level, is affected by the pay cap. So you don't have to 
get very high in the organization to be affected by the pay 
cap.
    As far as how much of a role that was played out there, I 
can't tell you, and some of it may be attrition for the people 
that are retiring, but our reliance upon overhead management 
teams, our reliance on our cooperators, State and local 
government, to fill positions on the overhead management team, 
has increased considerably over the last several years. I know 
you heard some statistics earlier talking about how many less 
teams we have out there or people that are available for the 
teams. We have reduced the numbers of teams dramatically.
    And even on those teams, where we used to have 100 percent 
Federal employee involvement on those overhead teams, now we're 
probably looking at somewhere in the neighborhood of about 30 
percent of the team members are State and local government. 
Which, we're glad that they are participating.
    But generally, their expertise is different than ours. You 
may get people out of the city or county fire departments that 
aren't, that do a lot of structure fires but not a lot of 
wildland, and now we're relying on what they know to help us 
out in wildlands. So things have changed out there.
    Mrs. Morella. Thank you, Mr. Swartzlander, and thank you, 
Mr. Chairman.
    Mr. Scarborough. Thank you, Mrs. Morella.
    Mr. Cummings, any other questions?
    Mr. Cummings. No.
    Mr. Scarborough. Well, thank you, Mr. Swartzlander, I 
appreciate your coming and testifying before us today. It's 
been very helpful, and we look forward to having some positive 
news for you and others that again put their lives on the line 
protecting property and life in our country. Thank you.
    Mr. Swartzlander. Thank you, Mr. Scarborough.
    Mr. Scarborough. We'd like to now move on to our third 
panel. And our third panel will consist of Henry Romero. Mr. 
Romero has served as Associate Director for Workforce 
Compensation and Performance at the Office of Personnel 
Management since October 1997. He is responsible for developing 
and administering compensation, classification, and performance 
programs for the 1.8 million Federal employees in the executive 
branch.
    Mr. Romero has also served at the Department of Justice and 
the Department of Defense, and this is his first appearance 
before the subcommittee, and we welcome his participation. I 
need to swear you in, Mr. Romero.
    [Witness sworn.]
    Mr. Scarborough. Thank you. You may begin.

   STATEMENT OF HENRY ROMERO, ASSOCIATE DIRECTOR, WORKFORCE 
   COMPENSATION AND PERFORMANCE SERVICE, OFFICE OF PERSONNEL 
                           MANAGEMENT

    Mr. Romero. Mr. Chairman and members of the subcommittee, 
thank you for inviting me to testify today on overtime pay for 
wildland firefighters. We are pleased to have the opportunity 
to discuss the administration's plans to deal with overtime pay 
problems affecting Federal employees who perform work in 
emergency situations, including wildfire emergencies.
    During the last few months, it has become clear that 
legislation is needed to help address the challenges posed in 
responding to emergencies and disasters, in particular, the 
wildfires that have besieged our western States. The efforts of 
our brave Federal wildland firefighters and other disaster 
relief personnel are being hampered by decades old personnel 
administration rules related to compensation for overtime work 
that never contemplated the situation we currently face.
    Let me explain the problem briefly. The overtime pay rate 
for lower graded employees covered by the Fair Labor Standards 
Act [FLSA], is equal to one and a half times their hourly 
regular rate of pay. The hourly overtime rate under Title V of 
the United States Code for FLSA exempt supervisors, managers 
and other higher graded employees, on the other hand, is 
limited by law to the overtime rate for GS-10 step 1.
    This difference in overtime pay entitlement has helped to 
create a disincentive to performing supervisory wildfire 
suppression duties. Last month, President Clinton took decisive 
action to address this problem. He instructed the Departments 
of Agriculture and Interior to use their statutory authority to 
provide incentives for those who make financial sacrifices by 
performing supervisory duties in the difficult battle to 
suppress the western wildfires.
    This action offered a timely short-term solution to a 
longstanding problem. We all agree that a long-term solution is 
needed. Therefore, the administration submitted a legislative 
proposal to Congress last week that would address overtime pay 
problems in two ways. First, the administration proposal 
ensures that no Federal employee would receive less than his or 
her normal rate of pay for overtime work.
    Second, it recognizes the special demands and difficult 
circumstances involving emergencies that threaten life or 
property by increasing the hourly overtime pay limitation from 
GS-10 step 1 to GS-12 step 1 for FLSA exempt employees who 
perform overtime work in connection with such an emergency or 
its aftermath. The head of each employing agency, in 
consultation with the Office of Management and Budget, would be 
authorized to determine the existence and duration of an 
emergency and whether the work of individual employees is 
connected to it.
    The legislative proposal submitted to Congress last week 
builds upon and includes changes proposed in a bill submitted 
by the administration last year to correct longstanding FLSA 
exempt overtime pay problems for Federal employees generally. 
We urge Congress to give early consideration to the Government-
wide proposal submitted to Congress last week.
    We are convinced that a Government-wide solution is needed 
to ensure that employees are treated equitably. A Government-
wide solution would be more equitable, because it would 
recognize that several different categories of Federal 
employees are called upon to perform large amounts of overtime 
work in difficult circumstances, sometimes involving a direct 
threat to life or property.
    For example, the GS-10 step 1 hourly overtime pay cap now 
applies to National Transportation Safety Board inspectors who 
investigate accident scenes, Federal Emergency Management 
Agency employees who provide assistance at the site of a 
natural disaster, weather forecasters who work long and 
unpredictable hours because of the vicissitudes of severe 
weather conditions, and civilian Defense Department employees 
who provide support for our armed forces in military 
operations.
    In addition, firefighters are also subject to the same cap 
for any regularly scheduled overtime work they perform outside 
their normal tour of duty.
    H.R. 2814, a bill referred to the subcommittee earlier this 
year, provides a solution to this problem for only one group of 
Federal employees, wildland firefighters who work in the U.S. 
Forest Service of the Department of Agriculture, or in the 
Department of the Interior. But it would not provide any relief 
for many other similarly situated Federal employees.
    Moreover, the rate of overtime pay provided by H.R. 2814, 
up to one and a half times an employee's basic rate, regardless 
of grade level, is well in excess of the amount typically 
provided by private sector employers.
    As you requested, let me compare the Federal Government and 
the private sector with respect to overtime compensation. 
Information available to the Office of Personnel Management 
from recent non-governmental sources indicates that only a 
minority of private sector employers provide time and one half 
overtime pay to employees who are exempt from the FLSA. For 
example, a 1999 Wyatt Data Services exhibit book on overtime 
policies for exempt employees shows that 17 private sector 
firms out of 104 surveyed provided time and one half overtime 
pay. Five firms provided double time pay.
    But a majority, 54 firms, provided straight time pay. A 
1996 compensation survey report of the Human Resource 
Association of the National Capital Area shows that 85 percent 
of surveyed employers in the national Capital area do not pay 
any overtime pay to their FLSA exempt staff at all. Of those 
that do make such payments, the Human Resource Association 
reports that overtime payments typically are made at the 
employee's base rate of pay, not time and one half.
    However, both of the sources of information cited covered a 
broad range of industries and were not limited to emergency 
services.
    We believe the administration's newly revised overtime pay 
proposal would address virtually all of the overtime pay 
problems that prompted consideration of H.R. 2814. It would 
also bring Federal overtime pay practices closer into alignment 
with private sector overtime pay practices by guaranteeing that 
all FLSA exempt employees receive no less than their regular 
hourly rate of pay for any overtime work. And it would do all 
of this at a reasonable cost to the taxpayer.
    As always, OPM would evaluate the effectiveness of the new 
overtime pay practices and after 2 to 3 years of experience 
recommend any additional changes that may be appropriate.
    This concludes my prepared remarks. I would be pleased to 
answer any questions you may have.
    [The prepared statement of Mr. Romero follows:]

    [GRAPHIC] [TIFF OMITTED] T4833.018
    
    [GRAPHIC] [TIFF OMITTED] T4833.019
    
    [GRAPHIC] [TIFF OMITTED] T4833.020
    
    [GRAPHIC] [TIFF OMITTED] T4833.021
    
    [GRAPHIC] [TIFF OMITTED] T4833.022
    
    [GRAPHIC] [TIFF OMITTED] T4833.023
    
    [GRAPHIC] [TIFF OMITTED] T4833.024
    
    Mr. Scarborough. Thank you, Mr. Romero.
    Let me begin by talking about something that apparently is 
a great concern to Congressman Pombo and Congressman Udall, who 
called the situation inexcusable, and Congressman Pombo, I'm 
sure you heard, went a little further and said right now the 
administration was engaged in a deadly game by pushing harder 
for the Government-wide fix, as opposed to something that just 
keys in on this one crisis issue.
    Would you agree that if Congress can't make a decision on 
the Government-wide preference that we at least need to go 
ahead and get a fix before we're out of session this year on 
the firefighters issue to make sure that there's not a 
preference for people denying promotions?
    Mr. Romero. No, I'm not sure I agree with that, Mr. 
Chairman. Mr. Pombo's bill addresses one group of employees, 
one segment of the work force.
    Mr. Scarborough. Right.
    Mr. Romero. As Mrs. Morella pointed out already, there are 
statements to this subcommittee in regard to this hearing 
already talking about. You forgot the DOD firefighters. I'm 
sure there will be other groups of employees that will emerge.
    If there are practices that show that only one group of 
employees have been taken care of, I wish we had the luxury in 
OPM to just deal with pay policies one group at a time whenever 
an issue is raised with us. But we have the responsibly to look 
across the entire executive branch, and as we mentioned in my 
testimony, we already have been approached by the National 
Transportation Safety Board, by FEMA, by DOD, about people that 
get involved in emergency work and do face threats to life and 
property in the course of their duties that would normally say, 
``What about us?''
    Mr. Scarborough. But my question to you is, if agreement 
can't be reached on a Government-wide policy, are you saying 
that we shouldn't pass a firefighter's fix?
    Mr. Romero. I think our bill addresses the wildland 
firefighter issues, the ones they've raised, and would do so in 
a reasonable way. I think that bill should address the concerns 
that have been raised to the subcommittee.
    Mr. Scarborough. Right. But my question is, would you 
support the passing of that legislation by itself in a stand-
alone position if it's obvious that Congress can't pass the 
administration's Government-wide fix?
    Mr. Romero. No. We would not support that because of the, 
we think it's unnecessary, and the overtime rates that would be 
in place for these employees are, we think, excessive to the 
need that has been addressed and would create problems in pay 
administration for all the other groups that would surely come 
to the subcommittee and want to be fixed as well.
    Mr. Scarborough. Let me ask you this. Can you give me 
another example of these other agencies where more experienced 
people are actually discouraged from taking promotions because 
they're going to actually get a pay cut?
    Mr. Romero. The pay cap applies to everybody. And the 
situation would be the same in FEMA, where higher graded 
employees would have the same disincentive to taking on other 
kinds of duties that are in a different FLSA category. They 
react to natural disasters. They react, in your home State, to 
hurricanes and flooding. And they have the same kind of 
challenges in terms of people having a disincentive to taking 
certain duties to which the pay cap applies, the overtime pay 
cap.
    Mr. Scarborough. I've got a Judiciary vote, I've got to 
run, I'm going to ask another quick question then pass it on, 
and then come back and maybe get some more questions in.
    Let me ask you this. Do you have evidence from FEMA or any 
other area of similar recruitment and retention problems in 
other positions covered by the administration's proposal, like 
we have in this situation?
    Mr. Romero. We have; in approaching us, they have cited the 
same kinds of concerns about employees who are in non-exempt 
positions being unwilling to take on higher graded duties that 
would put them in an exempt category or would move them into a 
GS-12 or GS-13 position that would be subject to overtime pay 
caps. Yes, sir, that is a situation that exists elsewhere 
beyond the wildland firefighters.
    Mr. Scarborough. And where is that? What agency?
    Mr. Romero. FEMA, National Transportation Safety Board, 
Department of Defense.
    Mr. Scarborough. And do you have evidence of, again, 
similar recruitment problems because of that situation, like we 
have in this firefighting situation?
    Mr. Romero. Yes, we do have problems with the overtime pay 
cap. We have evidence of the overtime pay cap creating 
disincentives for employees outside the wildland firefighter 
situation, not willing to take certain other duties because of 
the overtime pay cap.
    Mr. Scarborough. Right. And I'm sorry, but my question is, 
is there evidence as direct as we have evidence here that's 
actually causing recruitment and retention problems like it's 
causing in this situation?
    Mr. Romero. I don't have data that would be specifically 
addressing the same kind of scope of situation as the data 
presented here this morning.
    Mr. Scarborough. My time has run out. Mr. Cummings.
    Mr. Cummings. You know, as I was listening to you, I 
couldn't help but think about the problem that we are 
developing in Baltimore, where the mayor gave the policemen a 
10 percent raise. And it will be, I think, 33 percent over the 
next 3 years.
    And then with all the other city employees, like the 
firefighters, you know, they're saying, what about me, we put 
our lives on the line. The garbage men are saying, we lift 
heavy cans every day, and all these fumes and getting rid of 
garbage. And the interesting thing, I think the thing that 
troubles me about all of this, is that we are in a situation 
where we really do sympathize with the firefighters. And I 
think you do, too.
    Mr. Romero. We admit that's a problem, and we've submitted 
some proposals to address that.
    Mr. Cummings. Yes. And you don't want to be viewed as being 
anti-firefighter, because you are trying to deal with the kinds 
of problems that we're now beginning to face in Baltimore. But 
at the same time, you want to get a remedy that will hopefully 
cure everything, so you don't have folks coming in and out of 
here, like you said a few minutes ago. And that's got to be a 
kind of tough situation.
    And then the firefighting situation is right on the front 
burner, I didn't want to use burner, but it is, it is right 
here in front of us, because we're dealing with it, it seems 
like, almost on a daily basis.
    And that leads me to, Mr. Swartzlander's testimony was 
excellent, by the way, he testified that wildland firefighters 
are incorrectly classified as forestry technicians, and that 
OPM has agreed to address this issue.
    In your opinion, are the wildland firefighters incorrectly 
classified?
    Mr. Romero. We're doing a data gather right now as a result 
of that assertion. We're not sure. We issue guidelines for 
agencies to use to classify the duties and responsibilities 
they assign to employees. The classification of wildland 
firefighters as forestry technicians in the GS-462 series is a 
function of the Department of Agriculture and Department of 
Interior having made that decision that's where they belong, 
based on the scope of duties and responsibilities they have 
assigned.
    They've made a decision that they're not firefighters by 
name, but we have a series for firefighters, and there's a lot 
of other Federal employees who are firefighters. That's an 
administrative solution that can be accomplished by determining 
what is the proper duties and responsibilities. And we can do 
that with administrative options.
    But that's a decision that's made by management as to what 
are the proper duties and responsibilities, with the proper 
classification based on the assignment of duties.
    I would point out that the grade level criteria for 
forestry technicians in many cases, provide for higher grade 
levels than firefighters who are in the GS-081 series. So 
there's some tension there as to whether or not there's higher 
grades for forestry technicians than there are for the typical 
GS-4 and GS-5 firefighters.
    Mr. Cummings. Do you know why the wildland firefighters 
weren't included in the Firefighters Reform bill enacted back 
in 1998?
    Mr. Romero. No, I don't, Mr. Cummings.
    Mr. Cummings. Are you familiar with H.R. 1770?
    Mr. Romero. Yes, I am.
    Mr. Cummings. Do you see that as a solution to the problem, 
or do you like what you're doing better?
    Mr. Romero. Well, H.R. 1770 addressed an issue that's been 
discussed at length this morning, the fact that at some, in 
many cases, people that are assigned to overtime work because 
of the cap actually earn even less money than their basic 
hourly rate of pay; 1770 sought to address that. And had that 
been dealt with by the Congress last year, we would not have 
been talking about that today.
    The new bill deals with that problem, and in addition, 
solves by raising the pay cap to GS-12 step 1 the question of 
having a low pay, overtime pay cap that is a disincentive for 
certain employees to take on supervisory or higher graded 
duties. So it does one up on H.R. 1770.
    Mr. Cummings. The GS-12 step 1, what's the significance of 
that?
    Mr. Romero. Well, I know we've been talking mostly in the 
abstract this morning about GS grade levels and percentages. 
But let's talk about dollars. That GS-10 step 1 cap that exists 
right now is approximately $27; $27.36 I think is the GS-10 
step 1 cap that is the problem.
    By raising the pay cap to 12 step 1, the overtime rate for 
most employees who are in the rest of the United States, not in 
locality pay areas, but for most employees that would rise to 
about $36 an hour, approximately a 30 percent increase for a 
GS-12 employee from the current cap. At higher grade levels it 
would be even higher. I know there's not that many GS-15 
employees, but for a GS-15 employee who would not want to take 
on fire suppression duties because they would have to take, the 
overtime pay cap would be so low, it would actually jump to 
about, to $47 an hour or a 60 percent increase in the overtime 
pay cap. So there, our bill would result in large percentage 
increases in the overtime rate for people at the GS-12 through 
15 pay level.
    I would like to point out that in Mr. Pombo's bill, with no 
limitation on grade level, a GS-15 senior employee who got 
straight time and a half, no cap, people have been referring to 
straight time and a half, the overtime rate for that employee 
would be over $77 an hour. That would be a 180 percent plus 
increase from their current cap. That's what happens to a 
senior employee where there is no pay cap, where it's true time 
and a half. And I think that it is unnecessary, certainly not 
consistent with pay practices in most parts of our economy in 
this country.
    Mr. Cummings. Thank you very much.
    Mr. Scarborough. Mr. Romero, I only have a couple more 
questions. My staff has been advised of the fact, as we heard 
Mr. Swartzlander him testify to this earlier, that even if the 
administration's bill is enacted, there's going to continue to 
be a pay disparity within the Federal wildland firefighter 
ranks. That is, it will continue to be routine for employees 
assigned to the wildland fire emergency command positions with 
significant responsibilities to receive lower overtime pay than 
personnel with much more limited experience and training. Do 
you agree with that assessment? Do you agree with Mr. 
Swartzlander's assessment? Do you agree with what we've been 
hearing from Mr. Pombo, Udall and other offices' assessment of 
the bill that you're supporting here?
    Mr. Romero. I can't address the relative skill levels of 
who the other cooperators might be. That's not my field. But I 
do know that in proposing our bill, we think we're addressing 
some of the concerns that have been raised about what causes 
that disincentive and what causes there to be lesser skilled 
people on the fire lines, a fact that some supervisors and 
higher grade people don't want to take on those duties, because 
the overtime pay cap keeps them from being attracted to that 
work.
    We think our bill helps with that part of the problem. I 
don't think I can address whether the skill levels, in 
comparison to the other cooperators in the fire suppression 
duties, would be changed by that. I think we're addressing, 
though, I think Mr. Swartzlander addressed the fact that there 
are retention problems, and newly trained people leave before 
they're able to be utilized by the Federal Government. I think 
that's a retention problem Government-wide. It's not an 
overtime pay cap issue, those folks are leaving. And that's 
something we have to address on a Government-wide basis.
    But I do know that in some comparisons that are made, we do 
it State by State. And I know in Mr. Pombo's bill, the 
reference is to what California State practices might be, but 
they differ from the practices in the State of Florida, which 
are lesser pay and straight time, not even time and a half, for 
FLSA exempt employees. So I'm just concerned that our 
responsibility at OPM isn't to look at all the pay practices, 
pick the ones that are the highest and use that as a benchmark 
for setting pay policy for the Federal Government.
    Mr. Scarborough. Congressman Pombo and Congressman Udall's 
bill at least can ensure that all wildland fire supervisors and 
managers are going to receive greater overtime pay than their 
subordinates while on a wildland fire. Can you make that same 
guarantee today before the committee, that the administration's 
bill can ensure that the supervisors and managers are going to 
receive greater overtime rate of pay than their subordinates?
    Mr. Romero. Yes, I can do that. Raising the pay cap means 
that, there are two provisions. First of all, no one is going 
to earn less money than their basic rate of pay. So if you have 
a GS-12 or GS-13 working overtime, their rate of pay is going 
to be what their GS-12 or GS-13 basic rate of pay was anyway, 
and if they're a supervisor, they will be earning more money 
than their subordinate, who would have been at a lower grade 
level.
    Mr. Scarborough. But isn't it true that if a GS-13 takes a 
non-exempt position that he's going to get paid more for taking 
that non-exempt position? I mean, he's going to get paid a 
higher rate of overtime pay than if he took an exempt 
supervisory position, correct?
    Mr. Romero. The non-exempt employee will get time and a 
half. The GS-13 employee will get either the basic rate of pay, 
depending on whichever is higher, either that basic rate of 
pay, or the overtime rate which will be capped at the 12 step 1 
rate.
    So it's possible that for a higher graded GS-14 employee, 
and certainly the 15 level, that the rate of pay might be less 
than for an exempt employee at a very senior GS-12 level. So 
it's a situational situation, one on one. But in general, most, 
under our bill, most supervisors are going to earn more money 
than their subordinates.
    Mr. Scarborough. But not all, which was----
    Mr. Romero. Not in 100 percent of the cases, no, sir.
    Mr. Scarborough. Which was the last question I asked you.
    Have you discussed this specific issue with the Department 
of Interior and the Forest Service? Because very interesting 
things happened throughout this process. They supported the 
Pombo-Udall approach, supported the bill, worked with them, 
have been working with us. And then we come up to the time when 
we're going to have a hearing and all of a sudden they 
disappear on us. And they aren't going to come testify.
    Have you had conversations with anybody?
    Mr. Romero. I have not had any conversations with anybody 
from the Department of Agriculture or Department of Interior. I 
don't know what kind of support or conversations they were 
having in the drafting of Mr. Pombo's bill. I would have loved 
to have had some of my colleagues from the executive branch 
share the privilege of being before the subcommittee this 
morning.
    Mr. Scarborough. But you're the lucky one, you're getting 
all the glory yourself. [Laughter.]
    Mr. Romero. The decision of the Department of Agriculture 
and Department of Interior to not be here this morning was made 
outside of OPM. I have no knowledge of what, you know.
    Mr. Scarborough. No knowledge of why they're not here?
    Mr. Romero. No, sir.
    Mr. Scarborough. First or second hand? You have no second 
hand knowledge?
    Mr. Romero. No.
    Mr. Scarborough. Mr. Cummings.
    Mr. Cummings. I don't have anything.
    Mr. Scarborough. OK. Let me ask you one more question on 
retirement, a little different subject. But under current law, 
law enforcement officers are not required to separate from 
service until they become 57 years old. But the maximum age for 
firefighters is 55.
    When the law was changed to raise the retirement age for 
Federal law enforcement officers from 55 to 57, do you know why 
that age wasn't raised for firefighters?
    Mr. Romero. No, Mr. Chairman, I don't know. When the 
Federal Employees Pay Comparability Act, when it was enacted in 
1990, it provided for that new retirement age of 57 for law 
enforcement officers. The 55 retirement age for firefighters 
had been longstanding. And why it was not addressed in that 
piece of legislation, I don't know. The disparity exists today. 
I am aware that Congressman Gallegly had introduced a bill that 
would address this disparity. But we have not been asked, the 
administration has not been asked to comment on that bill.
    Mr. Scarborough. Is that something you'd support, getting 
rid of the disparity?
    Mr. Romero. I'm not familiar with the bill, so I'm not sure 
exactly what its provisions are. But----
    Mr. Scarborough. What about the general concept?
    Mr. Romero. The general concept is that unless there is a 
valid reason for disparity, we would oppose having these 
disparities, we would like to look at Government-wide 
situations and ensure that there is consistency and uniformity, 
unless there are valid reasons for any difference.
    Mr. Scarborough. OK. Thank you, Mr. Romero. I appreciate 
your coming to testify.
    And I just have two unanimous consent requests. First of 
all, I ask unanimous consent that the statement of Bobby 
Harnage, national president of American Federal of Government 
Employees, be made part of the record. And without objection, 
that is so ordered.
    [The prepared statement of Mr. Harnage follows:]

    [GRAPHIC] [TIFF OMITTED] T4833.025
    
    [GRAPHIC] [TIFF OMITTED] T4833.026
    
    [GRAPHIC] [TIFF OMITTED] T4833.027
    
    [GRAPHIC] [TIFF OMITTED] T4833.028
    
    [GRAPHIC] [TIFF OMITTED] T4833.029
    
    [GRAPHIC] [TIFF OMITTED] T4833.030
    
    Mr. Scarborough. And I also ask unanimous consent that 
several statements submitted in July by various firefighters be 
entered into the record. The minority has been given copies. 
And without objection, they are so ordered.
    Thank you for testifying. I'd like to thank everybody in 
all the panels, and thank you all for coming and listening to 
this very important issue. We are adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4833.031

[GRAPHIC] [TIFF OMITTED] T4833.032

[GRAPHIC] [TIFF OMITTED] T4833.033

[GRAPHIC] [TIFF OMITTED] T4833.034

[GRAPHIC] [TIFF OMITTED] T4833.035

[GRAPHIC] [TIFF OMITTED] T4833.036

[GRAPHIC] [TIFF OMITTED] T4833.037

[GRAPHIC] [TIFF OMITTED] T4833.038

[GRAPHIC] [TIFF OMITTED] T4833.039

[GRAPHIC] [TIFF OMITTED] T4833.040

[GRAPHIC] [TIFF OMITTED] T4833.041

[GRAPHIC] [TIFF OMITTED] T4833.042

[GRAPHIC] [TIFF OMITTED] T4833.043

[GRAPHIC] [TIFF OMITTED] T4833.044

[GRAPHIC] [TIFF OMITTED] T4833.045

[GRAPHIC] [TIFF OMITTED] T4833.046

[GRAPHIC] [TIFF OMITTED] T4833.047

[GRAPHIC] [TIFF OMITTED] T4833.048

[GRAPHIC] [TIFF OMITTED] T4833.049

[GRAPHIC] [TIFF OMITTED] T4833.050

[GRAPHIC] [TIFF OMITTED] T4833.051

[GRAPHIC] [TIFF OMITTED] T4833.052

[GRAPHIC] [TIFF OMITTED] T4833.053

[GRAPHIC] [TIFF OMITTED] T4833.054

[GRAPHIC] [TIFF OMITTED] T4833.055

[GRAPHIC] [TIFF OMITTED] T4833.056

[GRAPHIC] [TIFF OMITTED] T4833.057

[GRAPHIC] [TIFF OMITTED] T4833.058

[GRAPHIC] [TIFF OMITTED] T4833.059

[GRAPHIC] [TIFF OMITTED] T4833.060


</pre></body></html>
